No. ____
IN THE

Supreme Court of the United States
JUSTIN TERRELL ATKINS
Petitioner,
v.

TIMOTHY HOOPER, WARDEN
Elayn Hunt Correctional Center

Respondent.
____________________

TABLE OF APPENDICES

____________________

Page(s)
U.S. Court of Appeals, Fifth Circuit, Order denying
Atkins’ rehearing petition [12/20/2020] ................ 1a
U.S. Court of Appeals, Fifth Circuit, Rehearing
Opinion [11/03/2020] .............................................. 2a
U.S. Court of Appeals, Fifth Circuit, Original Opinion [08/07/2020] .................................................... 45a
U.S. District Court, Western District of Louisiana,
Judgment [12/07/2018] ........................................ 61a
U.S. District Court, Western District of Louisiana,
Report and Recommendation [11/19/2018] ......... 63a
Relevant statutory provisions.............................. 79a

1a
IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
NO. 19-30018
JUSTIN TERRELL ATKINS
Petitioner-Appellant,
v.
TIMOTHY HOOPER, Warden, Elayn Hunt Correctional Center,
Respondent-Appellee.
____________________
Appeal from the United States District Court
for the Western District of Louisiana
ON PETITION FOR REHEARING
Before SOUTHWICK, COSTA, and DUNCAN, Circuit Judges.
Per Curiam:
IT IS ORDERED that the petition for rehearing is DENIED. COSTA, J. would grant.

2a
IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
NO. 19-30018
JUSTIN TERRELL ATKINS
Petitioner-Appellant,
v.
TIMOTHY HOOPER, Warden, Elayn Hunt Correctional Center,
Respondent-Appellee.
____________________
Appeal from the United States District Court
for the Western District of Louisiana
ON PETITION FOR REHEARING
Before SOUTHWICK, COSTA, and DUNCAN, Circuit Judges.
LESLIE H. SOUTHWICK, Circuit Judge:
The previous opinion is withdrawn. See Atkins
v. Hooper, 969 F.3d 200 (5th Cir. 2020). A Louisiana
inmate appeals the district court’s denial of habeas relief based on a Confrontation Clause violation. We
AFFIRM.

3a
FACTS AND PROCEDURAL BACKGROUND
A jury convicted Justin Terrell Atkins of armed
robbery and aggravated battery. The conviction was
affirmed on appeal, then the Louisiana Supreme
Court denied review. State v. Atkins, 74 So. 3d 238
(La. Ct. App. 2011), writ denied, 82 So. 3d 284 (La.
2012) (mem.). Our factual summary is taken from the
Louisiana court of appeal decision. Id. at 239. The issue in this appeal concerns the evidence identifying
Atkins. For purposes of describing the events, we assume Atkins was one of the participants.
Robert Jones, Howard Bishop, and Tom Harris
were drinking alcohol together at Jones’s house. Atkins knew that Bishop and Jones had just returned to
the house after Jones cashed a check. After kicking in
the door to the house, Atkins demanded money, but
Jones refused. Atkins began beating Jones with the
butt of a firearm. When Harris intervened, Atkins hit
him too. Bishop witnessed the incident and saw Atkins take money from Jones’s pocket. During the robbery, Lawrence Horton was at the door to Jones’s
house. Horton had followed Jones and Bishop and saw
Jones cash his check.
That night, neither Bishop nor Harris could
give the actual names of the men involved in the
crime. They were able to inform police, though, of
their nicknames and added that the person who hit
Harris and Jones had been wearing an orange shirt.
Harris within a few days learned Horton’s name and
informed police. Eight days after the crime, Horton
surrendered himself to police. When questioned by

4a
Detective Jeffrey Dowdy, Horton admitted to being
one of the offenders but said Atkins was primarily responsible for the crime. Detective Dowdy then obtained an arrest warrant for Atkins. Horton’s statements were the first ones to name Atkins and the only
ones Detective Dowdy used when obtaining an arrest
warrant.
It was almost two weeks after the incident before either Bishop or Harris named Atkins. By that
time, Atkins had already been arrested. Harris testified that a neighbor who lived below his apartment
provided Harris with a picture of a man holding the
neighbor’s baby. The man in the photograph was Atkins. Harris believed that this photograph was of the
person involved in the crime who had been wearing
an orange shirt. He provided it to police.
The officers then asked Bishop to examine a
photographic lineup, and Bishop chose the picture of
Atkins. Whether Harris had earlier shown the photograph to Bishop is disputed, as we will discuss. This
testimony was presented at trial, and a jury convicted
Atkins for his role in the crime. The conviction was
affirmed on direct appeal.
Atkins filed for state post-conviction relief in
which he contended that he was denied his right to
confront and cross-examine Horton when hearsay evidence was presented at trial. The claim focuses on
the State’s opening statement, the testimony of Detective Dowdy, and the State’s closing argument.

5a
The prosecutor made these assertions in his
opening statement:
Finally, I believe the State
will have the testimony of
Lawrence Horton. Lawrence Horton is a co-defendant in this case. That
he was arrested for this offense as well as the defendant in this case. I believe
that he will tell you that he
and the defendant met on
the morning of January
2nd, 2009. That they went
ultimately to 1710 Jackson
Street wherein the defendant, Mr. Atkins over here,
busted the door in at 1710
and robbed and beat the
victims while he himself,
Mr. Horton, served as a
lookout. And I believe that
will – you will anticipate
that testimony as well.
Detective Dowdy at trial was allowed to imply,
but not directly state, that Horton had told Dowdy
that Atkins was his accomplice in the crime:
Q.

Okay. And did you in
fact speak with Lawrence Horton?

6a
A.

Yes, sir, I did.

Q.

All right. Was he advised of his rights?

A.

Yes, sir, he was.

Q.

And did he provide a
statement to you?

A.

Yes, sir, he did.

Q.

Was the statement
inculpatory? Did he
–

A.

Yes, sir, it was.

Q.

Okay. Did he implicate anybody else?

A.

Yes, sir, he did.

Q.

Okay. As a result of
this – well, all right,
he implicated someone else. What did
you do next with regard to your investigation?

A.

Based on the – the
information that he
provided he was arrested and again,

7a
based on the information that he provided I was able to
obtain a warrant.
Q.

For whom?

A.

Justin Atkins.

Harris and Bishop testified for the State, identifying Atkins but admitting to being intoxicated at
the time of the robbery. The State rested without calling Horton after indicating in its opening statement
that he would testify. The State’s brief here, written
by the assistant district attorney handling the trial,
said that Horton was interviewed after the opening
statement. As a result, “the undersigned counsel felt
Mr. Horton was not a credible witness and decided not
to call Mr. Horton.”
Atkins presented only one witness, Darrell Williams, whose testimony contradicted parts of Harris’
and Bishop’s recollections of details leading up to the
assault and robbery. Williams also testified that a
man in an orange shirt had been outside Jones’s
house just before the attack on Harris and Jones, but
he could not identify that man as Atkins. During closing argument, the prosecutor stated that Detective
Dowdy “interview[ed] Lawrence Horton, who [was]
known as O and then obtain[ed] an arrest warrant for
Justin Atkins, the defendant.” Detective Dowdy’s testimony and the State’s effort to make certain by its
argument that jurors understood the implications
about what Horton really told Detective Dowdy are

8a
the facts underlying the claim before us. Atkins was
convicted, and the judgment was affirmed on appeal.
The state district court denied Atkins’ application for post-conviction relief. Both the state court of
appeal and supreme court denied Atkins’ writ applications. Atkins filed a federal habeas application,
claiming that he was denied his Sixth Amendment
right to confrontation. A magistrate judge recommended that Atkins’ application be denied. The district court adopted the report, dismissed Atkins’ application, and denied Atkins a Certificate of Appealability. Atkins timely appealed. This court granted Atkins the right to appeal his Confrontation Clause
claim.
DISCUSSION
Atkins contends the state court’s decision denying his Sixth Amendment Confrontation Clause claim
was contrary to and involved an unreasonable application of Supreme Court precedent. Atkins also argues the State waived any harmlessness argument
and, regardless, the error was harmful. We first,
though, consider whether the State waived a defense
of procedural default.
I.

Waiver of defense of procedural default

The federal district court strongly recommended that the State analyze whether Atkins’ request for relief was barred by procedural default and
asked the State to address this possible defense. The
district court’s urging may have been because procedural default was one of the grounds on which the

9a
Louisiana Supreme Court denied state habeas relief.
State ex rel. Atkins v. State, 227 So. 3d 251, 251 (La.
2017). Nevertheless, the State failed to do so at the
district court, and Atkins now contends the State
waived procedural default because of this failure. In
the State’s response brief, the State did not attempt
to raise procedural default as a defense, and the State
did not respond to Atkins’ waiver argument. Thus, to
bar habeas relief based on procedural default, we
would have to raise and apply the defense sua sponte.
When considering whether we should identify
and apply a procedural default in habeas review, we
consider whether the applicant had notice that the appellate court might consider procedural default and
had a reasonable opportunity to respond, and
whether the government intentionally waived the
possible default. Smith v. Johnson, 216 F.3d 521, 524
(5th Cir. 2000). Here, the district court identified a
possible defense of procedural default and instructed
the State to raise the defense if the State believed it
applied. The State thereafter answered Atkins’ habeas application and explicitly spurned the suggested
defense, stating that “it appears [Atkins] has exhausted his state court remedies.” That is enough to
convince us not to consider the issue of whether Atkins’ habeas application is procedurally defaulted.
II.

Violation of the Confrontation Clause

We review a “district court’s findings of fact for
clear error and its conclusions of law de novo.” Dorsey
v. Stephens, 720 F.3d 309, 314 (5th Cir. 2013). Under
the Antiterrorism and Effective Death Penalty Act of

10a
1996 (“AEDPA”), a federal court may not grant habeas relief on a claim that a state court has adjudicated on the merits unless that adjudication resulted
in a decision that was either (1) “contrary to, or involved an unreasonable application of, clearly established Federal law, as determined by the Supreme
Court of the United States” or (2) “based on an unreasonable determination of the facts in light of the evidence presented in the State court proceeding.” 28
U.S.C. § 2254(d).
A.

The last reasoned decision

A component of our review under AEDPA is
how a claim was resolved in the “last related statecourt decision” that provides a “relevant rationale.”
Wilson v. Sellers, 138 S. Ct. 1188, 1192 (2018). If the
last state-court decision for the Section 2254 applicant did not provide a relevant rationale for the claim,
we “look through” that decision until we find one that
does. Id. Only then can we consider whether the highest state court to decide the claim resolved it in a manner contrary to or by an unreasonable application of
clearly established Supreme Court precedent. Id.
Atkins’ habeas application in the state district
court included the same Confrontation Clause claim
he now pursues in federal court, but Atkins’ state application also included claims of ineffective assistance
of trial counsel. We have no ineffective-assistance-ofcounsel claims before us.
Our search for a reasoned decision starts with
the highest state-court decision on Atkins’ habeas

11a
claims, that of the Louisiana Supreme Court in September 2017. State ex rel. Atkins v. State, 227 So. 3d
251 (La. 2017). The court denied relief to Atkins for
two reasons. First, it concluded that Atkins’ claims
were procedurally defaulted because he “failed to
raise his claims in the proceedings leading to conviction,” relying on Louisiana Code of Criminal Procedure article 930.4(B). Id. at 251. That is the procedural default that we do not inject into this appeal.
Second, the court held that Atkins “fail[ed] to satisfy
his post-conviction burden of proof” under Louisiana
Code of Criminal Procedure article 930.2. Id. Because
Atkins was claiming more than a Confrontation
Clause violation, and all claims had already been rejected by that court as procedurally defaulted, this
brief reference to the burden of proof does not inform
us whether the court was applying that defect to all
the claims. Therefore, the Louisiana Supreme Court
did not give a decision that was reasoned in AEDPA
terms on the Confrontation Clause issue or on harmlessness. See, e.g., Jackson v. Johnson, 194 F.3d 641,
651 (5th Cir. 1999). We therefore look through that
decision.
The preceding state-court decision was rather
concise, issued by the Louisiana Second Circuit Court
of Appeal in March 2016:
Applicant Justin Terrell
Atkins seeks supervisory
review of the trial court’s
denial of his uniform application for postconviction relief and “Amended Brief in

12a
Support of Application for
Petition for Post Conviction
Relief.” On the showing
made, the writ is denied.
La. C. Cr. P. art. 930.2; La.
C.E. 801(C); State v. Lewis,
47,853 (La. App. 2d Cir.
2/27/13), 110 So. 3d 644,
653, writ denied, 2013-0672
(La. 10/25/13), 124 So. 3d
1092; Woods v. Etherton,
__U.S.__, 136 S. Ct. 1149
(2016).
The brevity of this decision imperfectly follows
a Louisiana Uniform Rule of the Court of Appeal. The
Rule provides the following:
A. [Description of when
summary disposition is appropriate.]
B. The court may dispose of
a case by summary disposition with or without oral
argument at any time after
the case is docketed in the
appellate court. . . .
C. When a summary disposition is issued, it shall contain:
(1) a statement describing
the nature of the case and

13a
the dispositive issues without a discussion of the
facts;
(2) a citation to controlling
precedent, if any; and
(3) the judgment of the appellate court and a citation
to one or more of the criteria under this rule which
supports the judgment,
e.g., “Affirmed in accordance with Uniform Court of
Appeal Rule 2-16.2.A(1).”
LA. UNIF. R. COURT APP. 2-16.2.
Among other omissions, the court of appeal did
not identify a dispositive issue. The State now argues
that one dispositive issue was the harmlessness of
any error; the state court’s failure to identify any issue blunts the contention. Nonetheless, we are not the
supervisors of a state court’s compliance with its own
procedural rules: “federal habeas corpus relief does
not lie for errors of state law.” Lewis v. Jeffers, 497
U.S. 764, 780 (1990). We still must find some violation
of federal law in the court’s judgment before granting
any relief.
The court of appeal first cited Louisiana Code
of Criminal Procedure article 930.2, as would the
state supreme court, which places the burden of proof
on the applicant for relief. The court next cited Louisiana Code of Evidence article 801(c), which defines

14a
hearsay. At most we can discern that the definition of
hearsay was relevant, and Atkins had the burden of
proof as to any relevant facts and, perhaps, did not
carry that burden well.
The first of two court opinions cited was State
v. Lewis, 110 So. 3d 644 (La. Ct. App. 2013). In Lewis,
the defendant raised five issues on appeal. Id. at 649–
55. The court of appeal in Atkins’ case gave a pinpoint
citation to the page of Lewis discussing the right to
confrontation. Id. at 653. That page refers to testimony similar to what is at issue in our case and avers
that a police officer’s describing his investigation by
restating what he was told is generally not hearsay.
Id. Still, there is no holding on that page about
whether the testimony in Lewis contained hearsay.
Id. On the next page of the opinion, the Lewis court
held that the police officer’s testimony that strongly
implied the defendant was the suspect was actually
inadmissible hearsay, but the error was harmless because of other substantial evidence of guilt. Id. at 654.
The State insists on this appeal that the reference to Lewis constitutes a holding on the merits that
the testimony in this case was at worst harmless error, even if there were a violation of the Confrontation
Clause. Our problem with this position is three-fold.
First, there had not been any argument about harmless error in Atkins’ case. The briefing in the state district court did not address that possibility, and the
district court’s opinion did not discuss it. As to Atkins’
appeal, the State never filed a brief, an absence consistent with Uniform Rule of the Court of Appeal 2-

15a
16.2(B) that allows the court to enter a decision without responsive briefing. The issue of harmless error,
therefore, had not been part of the case. Second, by
not identifying any dispositive issue, the court of appeal did not itself indicate that it was relying on
harmless error. Finally, the cited page of Lewis did
not refer to the harmlessness of an error.
In considering the State’s new argument that
the court of appeal held any error to be harmless, we
have two considerations. On the one hand, Congress,
by adopting AEDPA, has established rules to prevent
federal courts from unnecessarily overturning statecourt resolution of post-conviction claims. On the
other hand, habeas itself is based on important liberty
interests. For us to conclude that the court of appeal
decision we just described actually held that the introduction of the officer’s testimony was harmless error would create a ruling that the state court did not
clearly make. Before giving the exceptional level of
deference to a state-court holding that AEDPA requires, we need better support than exists here to conclude that the state court actually made that holding.
We thus find that the state court by referring to Lewis
was deciding on some other basis, perhaps the same
that the trial court had used —this testimony was not
hearsay at all.
Finally, the court of appeal cited Woods v.
Etherton, 136 S. Ct. 1149 (2016). Woods dealt only
with a claim of ineffective assistance of appellate
counsel for failing to raise a Confrontation Clause argument on appeal. Id. at 1151–53. As an initial mat-

16a
ter, the court of appeal opinion does not include a pinpoint citation to any portion of the opinion. We consider the case’s general holding, which was that the
federal circuit court of appeals applied the incorrect
standard of review under AEDPA. Id. at 1152. When
analyzing ineffective-assistance-of-counsel claims under AEDPA, the Supreme Court concluded that “doubly deferential” review is the appropriate standard.
Id. at 1151 (quoting Cullen v. Pinholster, 563 U.S.
170, 190 (2011)).
Atkins argues that the state court of appeal denied his Confrontation Clause claim by incorrectly applying this double deference. Actually, because Woods
addresses ineffective assistance of counsel, we conclude that the better understanding is that the state
court was using that precedent to deny the similar
claim that Atkins brought in state court but is not before us. Accordingly, the state court of appeal’s use of
Woods is not relevant to the Confrontation Clause
claim before us.
We conclude that the state court of appeal did
not make an identifiable, reasoned decision as to the
Confrontation Clause. At most, we could say that its
citation to Lewis could be a ruling that this testimony
was not hearsay at all. Because of our uncertainty, we
look through that court’s opinion and find the state
district court’s decision.
In February 2016, the state district court denied Atkins’ application for post-conviction relief with
far more explanation than either appellate court. The
court held that Atkins’ right to confrontation was not

17a
violated, reasoning that because Detective Dowdy’s
testimony did not reference the actual statements
Horton made during Detective Dowdy’s investigation,
no hearsay was admitted. The court also found that
Detective Dowdy’s testimony was “used to explain the
sequence of events leading to the arrest of [Atkins]
from the viewpoint of the arresting officers,” which is
permissible under state law. Because the state court
determined the relevant statements were not hearsay, there was no Confrontation Clause violation.
There was no additional consideration at this point of
any harmless effect.
The district court’s decision that this testimony
was not hearsay is the needed ruling that provides a
rationale for Atkins’ Confrontation Clause claim. The
state court of appeal may also share this rationale.
Because we have concluded that no state court considered harmlessness, when we analyze that issue,
there is no state-court decision to receive deference.
B.

Application of Supreme Court precedent

The state court’s determination that we now review was a legal one, namely, that the relevant testimony was not hearsay. Our review, then, is under
Section 2254(d)(1) for whether the court’s decision
was “contrary to, or involved an unreasonable application of, clearly established Federal law, as determined by the Supreme Court of the United States.”
The first standard, that the decision be “contrary to . . . clearly established Federal law,” is met if
“the state court arrives at a conclusion opposite to

18a
that reached by [the Supreme Court] on a question of
law or if the state court decides a case differently than
[the Supreme Court] has on a set of materially indistinguishable facts.” Williams v. Taylor, 529 U.S. 362,
413 (2000). The second standard, that the state court
made an “unreasonable application of clearly established federal law,” is satisfied when that court “identifies the correct governing legal principle from [the
Supreme Court’s] decisions but unreasonably applies
that principle to the facts of the prisoner’s case.” Id.
These alternatives require more than a federal court’s
conclusion that the state court erred under clearly established Supreme Court authority. The federal court
must also conclude the state court’s error was “unreasonable.” Id. at 411.
We restate the key components of the challenged testimony. Detective Dowdy was asked what
he was told by Horton, who had admitted to being involved in the offense. The prosecutor prefaced his
question by saying that Horton “implicated someone
else,” and then asked Detective Dowdy, “What did you
do next with regard to your investigation?” The answer was that, based on what Horton told him, Detective Dowdy obtained a warrant for the arrest of Justin
Atkins. Jurors surely knew whom Horton implicated.
We now examine the state-court decision. We
already explained that the state court of appeal may
have decided that the testimony was not hearsay at
all when it cited a page from Lewis, one of its own
opinions. No United States Supreme Court authority
was cited on the specific page of Lewis that the intermediate court referenced, and we find no Supreme

19a
Court authority about hearsay anywhere in the Lewis
opinion. See Lewis, 110 So. 3d at 653.
The state district court’s ruling is the reasoned
state-court decision. Two fairly brief paragraphs are
the entirety of the hearsay discussion. First, under a
caption of “Law,” the court made these general statements about hearsay:
A defendant’s confrontation right is only implicated
when
the
out-of-court
statement is used to prove
the truth of the matter asserted. Tennessee v. Street,
471 U.S. 409, 414 (1985).
According to Bruton v.
United States, 391 U.S.
123, 88 S. Ct. 1620, 20 L.
Ed. 2d 476 (1968), the
United States Supreme
Court held that a defendant’s rights under the confrontation clause of the
Sixth Amendment to the
United States Constitution
were violated by the introduction, at a joint criminal
trial, of a nontestifying
codefendant’s
confession
which named and incriminated
the
defendant.
“Hearsay is a statement,
other than one made by the

20a
declarant while testifying
at the present trial or hearing, offered in evidence to
prove the truth of the matter asserted.” La. C.E. art.
801(c).
The next paragraph was captioned “Analysis.”
There, the court held that the challenged testimony
was not hearsay:
Mr. Atkins argues that he
was referenced to in the
testimony of Detective
Dowdy, Mr. Bishop, Mr.
Harris, and in the opening
and closing statements of
the State of Louisiana.
However,
Mr.
Atkins’
rights were not violated, as
no references were made to
the statements made by
Mr. Horton and thus hearsay was not evident. Although Detective Dowdy did
make statements in reference to the conversation between Atkins and Mr. Horton, this conversation was
used to explain the sequence of events leading to
the arrest of the defendant
from the viewpoint of the
arresting officers. State v.

21a
Calloway, 324 So. 2d at
809. Thus, Mr. Atkins’
claims in this respect are
meritless.
We examine the two cited Supreme Court opinions. In Street, the Confrontation Clause issue arose
from the fact that the confession of an accomplice who
incriminated Street was introduced. Its admission
was for the “nonhearsay purpose of rebutting
[Street’s] testimony that his own [later] confession
was a coerced ‘copy’ of” the accomplice’s confession.”
Street, 471 U.S. at 417. An instruction was given, informing jurors to consider the accomplice’s confession
only as rebuttal to Street’s claim and not for the confession’s truthfulness. Id. at 412. The Supreme Court
upheld the conviction, concluding that admission of
the entire statement with a limiting instruction was
necessary and constitutional. Id. at 415, 417. “Had the
prosecutor been denied the opportunity to present
[the accomplice’s] confession in rebuttal so as to enable the jury to make the relevant comparison, the jury
would have been impeded in its task of evaluating the
truth of respondent’s testimony and handicapped in
weighing the reliability of his confession.” Id. at 415.
The other Supreme Court decision cited by the
state district court involved a joint trial of two defendants; a witness stated that one of the two confessed to
him that both had committed the offense. Bruton, 391
U.S. at 124. The trial court instructed jurors that they
could consider that testimony only as to the defendant
who made the statement; the Supreme Court held the

22a
risk was too great that jurors would be unable to restrict their use of the confession. Id. at 135–36. The
Court reversed the conviction.
The district court in Atkins’ habeas suit did not
reveal how it was applying Street and Bruton. The
State’s brief in response to Atkins’ application in the
state district court contained an explanation of Street
that was quoted in that court’s opinion: “A defendant’s
confrontation right is only implicated when the outof-court statement is used to prove the truth of the
matter asserted. Tennessee v. Street, 471 U.S. 409,
414 (1985).” The State did not otherwise refer to
Street. To support its substantive analysis, the brief
cited Calloway, the same precedent the state district
court then relied on to dismiss Atkins’ claim. The Calloway opinion allowed the arresting officer to testify
that he stopped the black Cadillac in which the defendants were travelling because of a radio report of
suspects being in such a vehicle. State v. Calloway,
324 So. 2d 801, 809 (La. 1975). The testimony of what
officers heard over the radio was admissible to explain
the events leading to the arrest. Id.
The state habeas court concluded that Detective Dowdy’s recounting of his conversation with Horton was not hearsay because “this conversation was
used to explain the sequence of events leading to the
arrest of the defendant from the viewpoint of the arresting officers.” The holding was almost an exact
quote from Calloway, which in turn had relied on a
state-court precedent. Id. Regardless of whether that
was a fair application of Calloway, we need to exam-

23a
ine whether the state district-court decision was “contrary to, or involved an unreasonable application of,
clearly established Federal law, as determined by the
Supreme Court of the United States.” § 2254(d)(1).
The first decision, Street, involved an unusual
set of facts. The Supreme Court held that “there were
no alternatives that would have both assured the integrity of the trial’s truth-seeking function and eliminated the risk of the jury’s improper use of evidence.”
Street, 471 U.S. at 415. As to Atkins, even though
showing the sequence of events leading to a suspect’s
arrest may help jurors understand the story of the investigation, the testimony was hardly an indispensable component of the prosecution’s case.
As to Bruton, the other Supreme Court opinion
that the state habeas court cited, we do not see that it
was even being applied. Perhaps the court cited it as
a contrast both to Street and to Atkins’ situation. The
Bruton opinion does demonstrate one clear, but distinguishable, situation in which reversal is required
based on the Confrontation Clause. The state court
cited these two United States Supreme Court opinions, but its holding was based on the Calloway Louisiana Supreme Court opinion, which allowed officers
to recount hearsay to explain certain investigatory
steps.
We interpret the state court as having made
two holdings. First, Detective Dowdy’s testimony was
not hearsay because “no references were made to the
statements made by Mr. Horton and thus hearsay

24a
was not evident.” We agree to the extent that Detective Dowdy’s testimony did not restate or paraphrase
at any length what Horton had told him. Nonetheless,
the jurors were given a clear message about a specific
piece of information Horton conveyed, namely, that
Atkins was his accomplice. We do not see a holding in
Street, Bruton, or any Supreme Court opinion, in
which the Court permits a-wink-and-a-nod testimony
from a police officer such that jurors are able to understand what has been said about a defendant in an
out-of-court statement without the officer’s having to
say so explicitly. The second holding was that because
“this conversation was used to explain the sequence
of events leading to the arrest of the defendant from
the viewpoint of the arresting officers,” it was not
hearsay. Neither Street nor Bruton made such a holding. Both decisions recognized that a prosecutor’s professed purpose that the out-of-court statements are
not being used for their truth does not automatically
foreclose Confrontation Clause concerns.
We conclude that Street and Bruton do not even
address the Confrontation Clause issue raised by Atkins’ claims. To the extent the state district court was
applying either opinion, it was an unreasonable application to hold they controlled as to these different
facts. A precedent much closer factually and analytically to what occurred here is the decision in Gray v.
Maryland, 523 U.S. 185 (1998). When a police officer
read a codefendant’s confession into evidence at trial,
the incriminating statements about the defendant
were also read, but the witness said “deleted” or “deletion” instead of the defendant’s name. Id. at 188.
The Court reasoned that such redacted statements

25a
“obviously refer directly to someone, often obviously
the defendant, and . . . involve inferences that a jury
ordinarily could make immediately, even were the
confession the very first item introduced at trial.” Id.
at 196. The admission of the codefendant’s confession
containing unstated but transparent references to the
defendant violated the Confrontation Clause. Id. at
195.
Even closer factually is one of this court’s opinions in which a detective testified that he “had a conversation with [the witness] and during this conversation, learned some information,” and from that information, the detective testified he “was able to develop a suspect.” Taylor v. Cain, 545 F.3d 327, 331
(5th Cir. 2008). The prosecutor then asked, “as per
this end of your investigation, what was the name of
your suspect?” Id. The detective named the defendant. Id. That testimony violated the defendant’s right
to confront his accusers. Id. at 336.
Our description of one of our own precedents
may seem irrelevant, as Section 2254(d)(1) does not
permit relief unless a state-court decision is inconsistent with clearly established Supreme Court authority. Nonetheless, the Supreme Court recognizes
that a circuit court of appeal, in “accordance with [the]
usual law-of-the-circuit procedures, [may] look to circuit precedent to ascertain whether it has already
held that the particular point in issue is clearly established by Supreme Court precedent.” Marshall v.
Rodgers, 569 U.S. 58, 64 (2013). But “it may not canvass circuit decisions to determine whether a particu-

26a
lar rule of law is so widely accepted among the Federal Circuits that it would, if presented to this Court,
be accepted as correct.” Id.
Similarly, we have described the proper understanding as being that “circuit precedent cannot create clearly-established law” for purposes of Section
2254(d)(1), but a circuit court may properly rely on
one of its own decisions if that precedent held that a
Supreme Court precedent clearly established a point
of law. Carter v. Stephens, 805 F.3d 552, 556 (5th Cir.
2015). Our Taylor v. Cain opinion concluded that upholding the admission of this evidence was an unreasonable application of the law clearly established in
Ohio v. Roberts, 448 U.S. 56, 65 (1980). Taylor, 545
F.3d at 335–36.
Having gone this far in the analysis of the Confrontation Clause, we go no further. To summarize,
we have explained that the state district court did not
apply relevant Supreme Court precedent. We identified a different Supreme Court precedent, existing at
the time of the state-court decision under review here,
that has considerable relevance to the Confrontation
Clause issue. Exactly how it applies would need to be
analyzed. We also identified a Fifth Circuit precedent
on similar facts that purported to apply clearly established authority from the Supreme Court. We would
need to consider whether each specific relevant holding in Taylor at least stated it was relying on clearly
established Supreme Court authority. We leave open
these questions because we conclude the answers will

27a
not affect the outcome of the appeal. What does control is the final issue we consider: was any error harmful?
III.

Harm from Confrontation Clause error

Confrontation Clause violations are subject to
harmless-error analysis. Horn v. Quarterman, 508
F.3d 306, 322 n.24 (5th Cir. 2007). The State concedes
that it did not raise harmlessness in this case but
urges us to consider the possibility anyway. We have
held that we have the discretion to reach the issue
even sua sponte. Jones v. Cain, 600 F.3d 527, 541 (5th
Cir. 2010). We find it desirable in most AEDPA cases
to consider harmlessness. For a federal court to order
relief on a ground that was harmless is the kind of
needless interference with a state-court judgment
that AEDPA seeks to avoid. We will exercise our discretion and consider harmless error.
We first identify the standard we should apply
in determining whether the constitutional violation
amounted to harm. We reiterate that no state-court
decision evaluated harmlessness. Without a reasoned
state-court decision on the issue, no deference is due
under AEDPA. Gonzales v. Thaler, 643 F.3d 425, 430
(5th Cir. 2011).
Generally, when a federal court reviews a
state-court judgment of conviction, “a constitutional
trial error is not so harmful as to entitle a defendant
to habeas relief unless there is more than a mere reasonable possibility that it contributed to the verdict.”
Billiot v. Puckett, 135 F.3d 311, 318 (5th Cir. 1998)

28a
(quoting Woods v. Johnson, 75 F.3d 1017, 1026–27
(5th Cir. 1996)). In federal habeas review, the error
must have “had substantial and injurious effect or influence in determining the jury’s verdict.” Brecht v.
Abrahamson, 507 U.S. 619, 623 (1993) (quoting
Kotteakos v. United States, 328 U.S. 750, 776 (1946)).
“Actual prejudice” must be shown. Id. at 637. The
Brecht standard applies even when, as here, the state
court did not analyze the issue. Fry v. Pliler, 551 U.S.
112, 121–22 (2007).
We introduced this part of the explanation with
a caveat, that generally this is the approach. What
may be different here is the fact that the State forfeited the issue. In other words, the question is
whether the State’s failure to raise harmlessness any
earlier in the proceedings changes how we review
harmlessness. Whether the State’s silence was an intentional waiver of a recognized potential issue is unclear. “Forfeiture is the failure to make the timely assertion of a right; waiver is the intentional relinquishment of a known right.” United States v. Rodriguez,
602 F.3d 346, 351 (5th Cir. 2010) (quoting United
States v. Arviso–Mata, 442 F.3d 382, 384 (5th Cir.
2006)). Our caselaw states that a “waived” issue,
when the term is being used to refer to an issue intentionally not pressed on the court, usually will not be
reviewed. Id. at 350–51. As we have already indicated, though, we can raise harmlessness sua sponte.
Jones, 600 F.3d at 541. Whatever the cause of the
State’s failure, we can reach the issue.
In some situations, failure to raise an issue until the appeal results in review only for plain error.

29a
See United States v. Castellon-Aragon, 772 F.3d 1023,
1024 (5th Cir. 2014). Here, though, we are not considering a newly argued error that might justify reversing the district court after every previously raised argument failed to do so. Instead, we are considering a
new issue that might allow us to avoid setting aside
the lower court’s judgment. Plain error is not the
standard.
The Seventh Circuit set rules for reaching a
previously unmentioned harmlessness issue when
considering the direct appeal of a federal criminal
conviction. See United States v. Giovannetti, 928 F.2d
225, 227 (7th Cir. 1991). 1 The court determined that
for reaching forfeited arguments of harmless error in
that context, “the controlling considerations are the
length and complexity of the record, whether the
harmlessness of the error or errors found is certain or
debatable, and whether a reversal will result in protracted, costly, and ultimately futile proceedings in
the district court.” Id. We conclude that the Seventh
Circuit’s opinion, which predated Brecht by two years
and did not involve review of a state conviction, necessarily did not, indeed could not, take into account
that the “application of a less onerous harmless-error
standard on habeas [review of a state conviction] pro-

1

This court approvingly cited the Giovannetti opinion in
its discussion of whether we have the “discretion to decide legal issues that are not timely raised,” also doing
so in a direct appeal of a federal conviction. See United
States v. Vontsteen, 950 F.2d 1086, 1091–92 (5th Cir.
1992) (en banc). The analysis was not of harmless error.

30a
motes the considerations underlying our habeas jurisprudence.” Brecht, 507 U.S. at 623. We do not find
Giovannetti persuasive for adopting a heightened
standard in the habeas context from that identified in
Brecht.
We return to the precedent that identified our
discretion to reach a forfeited issue of harmless error.
Jones, 600 F.3d at 541. There, the State argued for
the first time in its surreply in district court that any
Confrontation Clause violation, similar to the testimony here, was at worst harmless error. Id. at 540–
41. This court discussed Brecht in some depth, without suggesting that because the issue had not been
properly raised by the State, Brecht might not apply.
See id. at 540. For example, the court stated that “the
prejudice of constitutional error in a state-court criminal trial is measured by the ‘substantial and injurious effect [or influence in determining the jury’s verdict]’ standard of Brecht v. Abrahamson, 507 U.S. 619,
113 S. Ct. 1710, 123 L.Ed.2d 353 (1993).’’ Id. (quoting
Taylor, 545 F.3d at 336). In Jones, the court analyzed
the possibility of harmlessness enough to say: “we are
convinced that the error here was not harmless” and,
accordingly, do not “undertake a full analysis in light
of the State’s waiver.” Id. at 541. 2

2

The Seventh Circuit, despite Giovannetti, has held that
Brecht applies in reviewing a state conviction, even if the
state forfeited the issue of harmlessness. See Rhodes v.
Dittmann, 903 F.3d 646, 665 (7th Cir. 2018) (refusing to
apply the Giovannetti standard of “certainty” as to harmlessness).

31a
Though we interpret Jones to have implied that
the usual Brecht standard applies even when considering a late-brought argument of harmlessness, we
see no clear precedential holding in Jones to that effect. We so hold now. Whether raised late by the State
or even if only noticed by the court sua sponte, the
same considerations apply as were explained in
Brecht.
Reaching harmlessness and applying the usual
review standard might appear to be giving more lenient treatment to the State’s defaults than is given to
those of defendants. True, applicants for habeas relief
are often barred under AEDPA from raising new arguments. We see no inequity, though, in reaching
harmless error in this appeal. The prohibition on
reprosecution after an acquittal, i.e., the double jeopardy bar, makes harmless error relevant only to a conviction. If a jury acquits, even multiple trial errors
harmful to the prosecution cannot disturb that verdict. On appeal from a conviction, though, reaching
harmlessness and applying the usual standard of review even when the issue has not been properly raised
avoids reversals and retrials when the violation did
not affect the initial proceedings. See Giovannetti, 928
F.2d at 227. A more general loosening of the tight
AEDPA rules for review of a conviction is for Congress.
We now examine the harm from this potential
error. The testimony which is the focus of the Confrontation Clause claim occurred because jurors were
effectively informed that Horton told Detective
Dowdy that Atkins was the second culprit. Whether

32a
that testimony had a substantial, injurious effect depends largely on the extent of other testimony identifying Atkins. Those with first-hand knowledge of the
events were Jones, Bishop, and Harris. All three had
been drinking alcohol just prior to the assault. According to a police officer, after the attack, the victims
“had some bleeding head wounds.” The three men all
smelled of alcohol and had slurred speech, and all
were “highly intoxicated.” Jones died before trial, and
the other two testified.
The victims knew Horton prior to the assault.
Harris and Horton had been roommates for about six
months, and on the morning of the assault and theft,
Harris had told Horton to move out of the apartment.
Despite these connections, none of the victims could
provide officers with more than Horton’s nickname on
the night of the crime. Harris testified that Atkins,
whom he knew as J Money, “had been in the neighborhood a couple of times with” Horton. Bishop similarly testified to knowing Horton and to seeing Atkins
a few times prior to the crime. During trial, both Harris and Bishop unequivocally identified Atkins as the
assailant whom they had earlier known only as J
Money.
There were some challenges made at trial to
the identification. In addition to their intoxication,
Harris after the assault “had trauma to his head,” was
bleeding, had bloodshot eyes, slurred his speech, and
“had extreme trouble standing up.” The defense, by
calling Williams, sought to raise doubts about the victims’ ability to have perceived the events, then to testify accurately about them, such as whether the door

33a
to the house was open or not, and whether there were
other, unidentified people there before the robbery.
We recount the process that led to Atkins being
identified as Horton’s accomplice. On the night of the
offense, Harris and Bishop identified their attackers
as J Money and O. Three days later, Detective Dowdy
again met with Harris and Jones. Harris for the first
time stated that he had learned the actual name of
one of the individuals involved in the crime. He discovered Horton’s name after finding documents left in
their previously shared apartment. It was almost two
weeks before either witness identified Atkins. Harris
testified at trial that a week after the assault, the couple who lived below his apartment told him that the
other offender had been with them at some point, and
someone had taken a photograph of him with the baby
who lived in the lower-level apartment. This neighbor
supposedly “knew what happened” and that is why
the neighbor gave Harris the photograph. It was this
photograph that Harris provided to officers. Detective
Dowdy created a photographic lineup with the neighbor’s picture for Bishop to review. Bishop selected Atkins’ photograph. This lineup would have been
tainted if Harris had earlier shown the photograph to
Bishop. At trial, Harris said he showed Bishop the
photograph before giving it to police, but Bishop testified that though he knew about the photograph, he
had not seen it before the photographic lineup.
The validity of the lineup was challenged on direct appeal. The state court of appeal held that the
“lineup was fair and reasonable,” and jurors were able
to judge the credibility of both Harris and Bishop in

34a
their identifications. Atkins, 74 So. 3d at 241. It does
not appear the claim was made to that court that
Bishop was shown the photograph before the lineup.
We do not consider how that omission would affect the
deference that otherwise would be owed to the court
of appeal on a finding of fact. The court also found that
Bishop and Harris “already knew Atkins and his accomplice.” Id. (emphasis and footnote removed). This
finding of prior knowledge is not an “unreasonable determination of the facts,” 28 U.S.C. § 2254(d)(2), and
is owed deference.
In summary, the two witnesses who were victims of the crime had some familiarity with Atkins before the offense. Each positively identified Atkins. On
cross-examination, defense counsel did not seriously
challenge either witness’s ability to identify the attacker on any grounds, including intoxication. At
least one witness, and perhaps both, knew the person’s nickname, J Money. Harris and Bishop were intoxicated, perhaps significantly so. We have no evidence to support, though, that their powers of perception were so affected as to be unable to recognize that
someone they had seen at least on a few earlier occasions was attacking them. The cross-examination of
the two witnesses raised no reasonable questions
about the identifications other than the potentially
tainted photographic lineup. Harris, though, was not
affected by that possibility, only Bishop. We conclude
that any error was harmless because it did not have a
“substantial and injurious effect or influence in determining the jury’s verdict.” Kotteakos, 328 U.S. at 776.
***

35a
No judge in active service having requested a
poll of the court on the petition for rehearing en banc,
that petition is DENIED. The petition is converted to
one for rehearing by the panel, and that petition is
GRANTED. We AFFIRM the district court’s denial of
relief.

36a
GREGG COSTA, Circuit Judge, dissenting in part:
There are winners and losers in litigation. So
the measure of the justice system is not whether the
losing party is happy with the result. It’s whether that
party got a fair shake. And fair treatment depends on
the neutral application of procedural rules. That evenhandedness is part of what is meant by the “rule of
law” or “equal justice under law,” ideals that are guiding lights of our justice system.
A neutral justice system cannot apply a double
standard for procedural rules such as the one that
should resolve this case: “Ordinarily a party may not
present a wholly new legal issue in a reviewing court.”
CHARLES ALAN WRIGHT & ARTHUR R. MILLER, 9C FEDERAL PRACTICE & PROCEDURE § 2588. That rule is a—
perhaps the—bedrock principle of appellate review.
See generally Raising New Issues on Appeal, 64 HARV.
L. REV. 652, 652–55 (1951). The preservation requirement is “as old as the common-law system of appellate
review.” Robert J. Martineau, Considering New Issues
on Appeal: The General Rule and the Gorilla Rule, 40
VAND. L. REV. 1023, 1061 (1987); see Clements v.
Macheboeuf, 92 U.S. 418, 425 (1875); 2 WILLIAM
BLACKSTONE, COMMENTARIES *455; Andrey Spektor &
Michael A. Zuckerman, Ferrets and Truffles and
Hounds, Oh My: Getting Beyond Waiver, 18 GREEN
BAG 2d 77, 79–81 (2014).
The rule against hearing new issues on appeal
comes up so often that it goes by many names. Waiver
is the most common term, though forfeiture is more
accurate (as we are talking about failing to raise an
issue in the trial court, not affirmatively abandoning
it). United States v. Olano, 507 U.S. 725, 733 (1993).

37a
It’s also called the preservation rule. Ian Speir &
Nima H. Mohebbi, Preservation Rules in the Federal
Court of Appeals, 16 J. APP. PRACTICE & PROCESS
281 (2015). Most punchy is “raise-or-lose.” United
States v. Roberts, 119 F.3d 1006, 1013 (1st Cir. 1997);
Tory A. Weigand, Raise or Lose: Appellate Discretion
and Principled Decision-Making, 17 SUFFOLK J. TRIAL
& APP. ADVOC. 179 (2012). Regardless of the label
used, “[t]he rule that points not argued will not be
considered is more than just a prudential rule of convenience; its observance, at least in the vast majority
of cases, distinguishes our adversary system of justice
from the inquisitorial one.” United States v. Burke,
504 U.S. 229, 246 (1992) (Scalia, J., concurring).
The state violated this basic preservation requirement when it comes to the harmlessness argument it now so vigorously pushes. There was not a
peep about harmlessness in the district court. As a result, the original panel opinion—issued after a full
airing of the case, including oral argument—decided
not to forgive the state’s forfeiture of the issue. Atkins
v. Hooper, 969 F.3d 200, 210 (5th Cir. 2020). We recognized the discretion we have to do so but saw “no
reason for exercising it here.” Id. I would stand by
that sound determination.
The panel majority, however, does a 180 on rehearing. There is nothing wrong with that as a general matter. For more than 99% of cases, the court of
appeals is the end of the road. The rehearing stage is
usually the last chance to get the case right. Judges
thus must guard against the certitude and pride that
can get in the way of correcting one’s mistakes. Open-

38a
ness to reconsideration is a good thing. But this reversal is not due to any error, factual or legal, that the
rehearing petition identified. Instead, the panel majority flips a judgment call on whether to forgive the
state’s failure to preserve the harmlessness issue. The
rehearing petition does not cite any new factors that
should influence that decision. The majority cites one
thing that has been true of this case from the very beginning: it is a habeas petition. Maj. Op. 18.
I see three problems with the notion that it is
“desirable in most AEDPA cases to consider harmlessness” even when it was not raised in the trial court.
Id.
First, the discretionary nature of recognizing
forfeiture is not unique to AEDPA. A court always has
discretion to forgive forfeiture (or even waiver). Exxon
Shipping Co. v. Baker, 554 U.S. 471, 487 (2008); Singleton v. Wulff, 428 U.S. 106, 121 (1976); Weigand, supra, at 180–81, 187–97 (chronicling Supreme Court
caselaw on discretion to overlook forfeiture); Spektor
& Zuckerman, supra, at 79, 82. No court says there is
some special rule for habeas that requires consideration of harmlessness when the state fails to assert it.
See Jones v. Cain, 600 F.3d 527, 540–41 (5th Cir.
2010); Rhodes v. Dittmann, 903 F.3d 646, 664 (7th
Cir. 2018) (recognizing discretion in this area and citing cases from the Fifth, Sixth, and Tenth Circuits
holding the same). Nor, until today, has any court created a presumption to forgive a failure to raise harmlessness in AEDPA cases. The traditional default rule
is against allowing a party to present an issue for the
first time in the appellate court. See, e.g., Poliquin v.
Garden Way, Inc., 989 F.2d 527, 531 (1st Cir. 1993)

39a
(Boudin, J.) (noting that it “is and should be uncommon” for courts to forgive waived or forfeited issues).
As we have said, forfeiture should be forgiven only in
“extraordinary circumstances.” Does 1-7 v. Abbott,
945 F.3d 307, 312 (5th Cir. 2019) (quotation marks
omitted). And like most discretionary decisions, the
decision to excuse a forfeiture should be “exercised on
the facts of individual cases” rather than dictated by
“general rule[s].” Singleton, 428 U.S. at 121; id. (noting two factbound situations when forgiving forfeiture
might be appropriate: “where the proper resolution is
beyond any doubt . . . or where ‘injustice might otherwise result’” (quoting Hormel v. Helvering, 312 U.S.
552, 557 (1941))). There is no textual or precedential
support for a categorical presumption that points in
the opposite direction of the general forfeiture rule
and excuses the state’s failure to raise harmlessness
in AEDPA cases. See Rhodes, 903 F.3d at 664 (“Procedural rules apply to the government as well as to defendants.” (quotation marks omitted)).
Second, the lack of textual support for special
leniency when it comes to the state’s forfeiture of
harmlessness contrasts sharply with AEDPA’s explicit provision for leniency for exhaustion: “A State
shall not be deemed to have waived the exhaustion
requirement or be estopped from reliance upon the requirement unless the State, through counsel, expressly waives the requirement.” 28 U.S.C. §
2254(b)(3); see Taylor v. Cain, 545 F.3d 327, 333 (5th
Cir. 2008). In other words, AEDPA says the state cannot forfeit exhaustion, it must affirmatively waive exhaustion. There is nothing like that in the statute for

40a
harmlessness. “We do not lightly assume that Congress has omitted from its adopted text requirements
that it nonetheless intends to apply, and our reluctance is even greater when Congress has shown elsewhere in the same statute that it knows how to make
such a requirement manifest.” Jama v. Immigration
& Customs Enforcement, 543 U.S. 335, 341 (2005).
Lastly, and circling back to my opening point,
the leniency the majority affords the government’s
forfeiture is hardly, if ever, shown when habeas prisoners fail to raise an issue in the district court. One
can look far and wide yet not find a decision from our
court excusing a prisoner’s failure to preserve. We
routinely apply forfeiture to habeas prisoners, without even contemplating using our discretion to excuse
it. See, e.g., Howard v. Davis, 959 F.3d 168, 172 (5th
Cir. 2000); Malone v. Wilson, 791 F. Appx 505, 506
(5th Cir. 2020); Thompson v. Davis, 916 F.3d 444, 460
(5th Cir. 2019). We apply the raise-or-lose rule to prisoners so strictly that it was not enough when one facing a life sentence raised an issue “in general” (and
cited the right statutory subsection in his opening
brief), because his argument was “inconsistent” and
unclear. Poree v. Collins, 866 F.3d 235, 250 (5th Cir.
2017).
If anything, this double standard—what’s good
for the prisoner is not good for the government—has
it backwards. Courts have long recognized that parties with liberty interests at stake present the strongest case for excusing forfeiture. United States v. Atkinson, 297 U.S. 157, 160 (1936) (stating that “[i]n exceptional circumstances, especially in criminal cases,”

41a
appellate courts could “notice errors to which no exception has been taken”); Raising New Issues on Appeal, supra, at 653 (“[R]aising new issues in criminal
cases . . . rests on the same considerations as are present in civil cases, but has the additional factor that
the result may be so drastic for the defendant and the
burden to the state of a new trial so minor that courts
tend to be more lenient in hearing a new matter on
his behalf.”); see also Weigand, supra, at 292–93 (noting that there is usually more reluctance to find plain
error in civil cases because liberty interests are generally “absent”). What is more, in habeas litigation
the state has counsel with subject matter expertise;
the prisoner is typically litigating pro se. Yet despite
our “traditional disposition of leniency toward pro se
litigants,” Spotville v. Cain, 149 F.3d 374, 377 (5th
Cir. 1998), we routinely enforce against them
AEDPA’s “procedural pitfalls that prevent prisoners
from challenging potentially unconstitutional convictions,” Rhodes, 903 F.3d at 664. Neutral application
of the law requires the same vigilance when it comes
to a procedural pitfall of the state’s own making. A
presumption that excuses the state, but not pro se litigants, for failing to raise an issue in the district court
is not consistent with “equal justice under law.” Cf.
Martineau, supra, at 1061 (arguing that “inconsistency” in applying forfeiture “is destructive of the
adversary system, causes substantial harm to the interests that the general rule is designed to protect,
and is an open invitation to the appellate judges to ‘do
justice’ on ad hoc rather than principled bases”);
Weigand, supra, at 180–81 (recognizing that inconsistent application of forfeiture rules casts doubt on

42a
the courts’ legitimacy).
For these reasons, I would stick with the original decision not to excuse the state’s unjustified failure to raise harmlessness in the trial court. Applying
our prescribed case-by-case discretion rather than an
extratextual presumption for AEDPA cases, this does
not come close to the “extraordinary circumstances”
that would justify forgiving the forfeiture. Does 1-7,
945 F.3d at 312 (cleaned up).
The only conceivable justification would be if
the Confrontation Clause error were harmless “beyond any doubt.” 1 Singleton, 428 U.S. at 121. When
the outcome of a retrial is “certain,” it would be inefficient to waste everyone’s time with a redo. United
States v. Giovannetti, 928 F.2d 225, 227 (7th Cir.
1991) (Posner, J.). 2 The need for the forfeited harmlessness issue to be “beyond any doubt” or “certain”
1

Other situations to excuse forfeiture, when a manifest
injustice would result or the neglected issue is a pure
question of law, do not apply. See Law Funder, L.L.C. v.
Munoz, 924 F.3d 753, 759 (5th Cir. 2019).

2

The majority opinion casts doubt on Giovannetti because
it was pre-AEDPA. But its certainty standard is the
same “beyond any doubt” standard that the Supreme
Court has recognized as one of the extraordinary circumstances that, as a general matter, may excuse forfeiture.
Singleton, 428 U.S. at 121. The majority opinion skips
over the need for an extraordinary circumstance to justify looking past forfeiture (unless it’s saying that there
is always an extraordinary circumstance in an AEDPA
case). That failure to identify a case-specific extraordinary circumstance is the source of my disagreement, not
the application of Brecht once there is a valid reason for
overlooking forfeiture.

43a
casts the issue in a much different light than the majority’s assessment, which gives the state a free pass
and considers harmlessness as if the state had followed the rules and raised it from the beginning. Taking the hearsay out of the equation, the state’s case
depended on the testimony of two eyewitnesses who
were drunk when the crime took place and who could
not give Atkins’s name when first questioned. Maj.
Op. 22–23. The prosecution thought the accomplice
Horton’s identification of Atkins was important
enough to its case that it featured it as the coup de
grace in opening, introduced it in violation of the Confrontation Clause during trial, and again mentioned
it at closing. The state’s continued reliance on Horton’s out-of-court tying of Atkins to the crime is not
surprising—testimony of an accomplice is potent evidence. Indeed, if the Confrontation Clause error were
obviously harmless, why didn’t the panel recognize
that the first time? Because harmlessness is not “beyond any doubt,” we should not forgive the state’s failure to timely raise it. Singleton, 428 U.S. at 121; see
also Giovanetti, 928 F.2d at 227 (refusing to forgive
government’s forfeiture of harmlessness in collateral
review case because outcome of question was not certain).
Atkins is the rare habeas prisoner who can
overcome the numerous statutory obstacles that
AEDPA places on those seeking to vacate their convictions based on the violation of important constitutional rights, which confronting one’s accusers surely
is. Judges, scholars, and commentators criticize
AEDPA for erecting too many of those hurdles. See,
e.g., Davis v. Straub, 430 F.3d 281, 296 (6th Cir. 2005)

44a
(Merritt, J., dissenting); Lincoln Caplan, The Destruction of Defendants’ Rights, NEW YORKER (June 21,
2015) (arguing that AEDPA “gutted the federal writ
of habeas corpus”); Bryan A. Stevenson, Confronting
Mass Imprisonment and Restoring Fairness to Collateral Review of Criminal Cases, 41 HARV. C.R.-C.L.
REV. 339, 360–62 (2006). But when it comes to the requirements that AEDPA actually imposes, those complaints should be directed at Congress. Stevenson, supra, at 360–61 (calling for repeal of the law). What
courts should not be doing is inventing new requirements not found in AEDPA’s text (perhaps in its emanations or penumbras?)—like a rule that lets the
state off the hook when it forfeits an argument, even
though we regularly hold other litigants to what they
argue in the trial court.

45a
IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
NO. 19-30018
JUSTIN TERRELL ATKINS
Petitioner-Appellant,
v.
TIMOTHY HOOPER, Warden, Elayn Hunt Correctional Center,
Respondent-Appellee.
____________________
Appeal from the United States District Court
for the Western District of Louisiana
USDC No. 3:17-CV-1544
Before SOUTHWICK, COSTA, and DUNCAN, Circuit Judges.
LESLIE H. SOUTHWICK, Circuit Judge:
A Louisiana inmate appeals the district court’s
denial of habeas relief based on a Confrontation
Clause violation. We REVERSE and REMAND so the
district court can grant the relief requested.

46a
Justin Terrell Atkins was convicted by a jury of
armed robbery and aggravated battery. The conviction was affirmed on direct appeal, and the Louisiana
Supreme Court denied review. State v. Atkins, 46,613
(La. App. 2 Cir. 9/21/11); 74 So. 3d 238, writ denied,
2011-2287 (La. 2/17/12); 82 So. 3d 284.
Our factual and procedural summaries are
taken from the Louisiana Court of Appeal decision.
Atkins, 74 So. 3d at 239. Robert Jones, Howard
Bishop, and Tom Harris were drinking alcohol together at Jones’s house. Atkins knew that Bishop and
Jones had just returned to Jones’s house after Jones
had cashed a check. After kicking in the door to the
house, Atkins demanded money, but Jones refused.
Atkins began beating Jones with the butt of a firearm.
When Harris intervened, Atkins hit him too. Bishop
witnessed the incident and saw Atkins take money
from Jones’s pocket.
During the robbery, Lawrence Horton was at
the door to Jones’s house. Horton had followed Jones
and Bishop and observed Jones cash his check at a
store. Eight days after the robbery, Horton approached law enforcement and, upon questioning by
Detective Jeffrey Dowdy, Horton admitted he had a
role in the robbery, but he said Atkins was primarily
responsible for the crime. Detective Dowdy then obtained an arrest warrant for Atkins. Separately, Harris gave a photo of Atkins to law enforcement and said
it was of the person who hit him and who robbed and
beat Jones.

47a
Atkins filed for state post-conviction relief in
which he contended that he was denied his right to
confront and cross-examine Horton when alleged
hearsay evidence was presented at trial. The claim focuses on the State’s opening statement before the
jury, the testimony of Detective Dowdy, and the
State’s closing statement.
In the State’s opening statement, the prosecutor stated:
Finally, I believe the State
will have the testimony of
Lawrence Horton. Lawrence Horton is a co-defendant in this case. That
he was arrested for this offense as well as the defendant in this case. I believe
that he will tell you that he
and the defendant met on
the morning of January
2nd, 2009. That they went
ultimately to 1710 Jackson
Street wherein the defendant, Mr. Atkins over here,
busted the door in at 1710
and robbed and beat the
victims while he himself,
Mr. Horton, served as a
lookout. And I believe that
will – you will anticipate
that testimony as well.

48a
During the trial, the following exchange occurred between the prosecutor and Detective Dowdy:
Q. Okay. And did you in
fact speak with Lawrence Horton?
A. Yes, sir, I did.
Q. All right. Was he advised of his rights?
A. Yes, sir, he was.
Q. And did he provide a
statement to you?
A. Yes, sir, he did.
Q. Was the statement inculpatory? Did he –
A. Yes, sir, it was.
Q. Okay. Did he implicate
anybody else?
A. Yes, sir, he did.
Q. Okay. As a result of this
– well, all right, he implicated someone else.
What did you do next
with regard to your investigation?

49a
A. Based on the – the information that he provided
he was arrested and
again, based on the information that he provided I was able to obtain a warrant.
Q. For whom?
A. Justin Atkins.
The State rested without calling Horton to testify.
Finally, the prosecutor stated in closing argument:
Detective Dowdy “interviews Lawrence Horton, who
is known as O and then obtains an arrest warrant
for Justin Atkins, the defendant.” This testimony
and closing argument are the facts underlying the
claim before us.
The state trial court denied Atkins’ application
for post-conviction relief. The court of appeal and the
Louisiana Supreme Court denied Atkins’ writ applications. Atkins filed a federal habeas application under 28 U.S.C. § 2254 claiming that he was denied his
Sixth Amendment right to confrontation. The magistrate judge issued a report and recommended that Atkins’ application be denied. The district court adopted
the report, dismissed Atkins’ Section 2254 application, and denied Atkins a Certificate of Appealability
(“COA”). Atkins timely appealed. This court granted
Atkins’ application for a COA on August 9, 2019.

50a
DISCUSSION
Atkins contends the state court’s decision denying his Sixth Amendment Confrontation Clause claim
was contrary to and involved an unreasonable application of Supreme Court precedent. Atkins also argues the State waived any harmlessness argument,
and Atkins alternatively argues the error was harmful. We consider Atkins’ arguments in that order, but
first we address whether the State waived a defense
of procedural default.
I.

Whether the State waived a defense of procedural default

Atkins contends the State waived a defense of
procedural default because the State failed to raise
the defense in the district court. In the State’s response brief, the State does not attempt to raise procedural default as a defense and the State does not
respond to Atkins’ waiver argument. Thus, to bar habeas relief based on procedural default, we would
have to raise and apply the defense sua sponte.
When considering whether we should identify
and apply a procedural default in habeas review, we
consider (1) whether the applicant has had a reasonable opportunity to argue against the application of
the bar, and (2) whether the government intentionally
waived the procedural defense. Smith v. Johnson, 216
F.3d 521, 523–24 (5th Cir. 2000); see United States v.
Willis, 273 F.3d 592, 596 (5th Cir. 2001) (extending
this reasoning to Section 2255 review). We begin and
end this analysis with the second consideration.

51a
Here, the district court explicitly identified a
possible defense of procedural default and instructed
the State to raise the defense if the State believed any
of Atkins’ habeas claims were procedurally defaulted.
The State thereafter answered Atkins’ habeas application and explicitly abandoned the defense, stating
that “it appears [Atkins] has exhausted his state court
remedies.” This chronology confirms that the State intentionally waived the defense. We will not inject the
issue into this appeal of whether Atkins’ habeas application is procedurally defaulted.
II.

Whether Atkins is entitled to habeas relief

We review a “district court’s findings of fact for
clear error and its conclusions of law de novo.” Dorsey
v. Stephens, 720 F.3d 309, 314 (5th Cir. 2013). Under
the Antiterrorism and Effective Death Penalty Act of
1996 (“AEDPA”), federal courts may not grant habeas
relief on a claim that the state courts have adjudicated on the merits unless that adjudication resulted
in a decision that was either (1) “contrary to, or involved an unreasonable application of, clearly established Federal law, as determined by the Supreme
Court of the United States” or (2) “based on an unreasonable determination of the facts in light of the evidence presented in the State court proceeding.” 28
U.S.C. § 2254(d).
The first standard, that the decision be “contrary to . . . clearly established Federal law,” is met
when “the state court arrives at a conclusion opposite
to that reached by [the Supreme Court] on a question
of law or if the state court decides a case differently

52a
than [the Supreme Court] has on a set of materially
indistinguishable facts.” Williams v. Taylor, 529 U.S.
362, 413 (2000). The second standard that would justify relief, which is that the state court made an “unreasonable application of clearly established federal
law,” is satisfied when that court “identifies the correct governing legal principle from [the Supreme
Court’s] decisions but unreasonably applies that principle to the facts of the prisoner’s case.” Id. These alternatives require more than a federal court’s conclusion that the state court erred. The federal court must
also conclude the state court’s decision was “unreasonable.” Id. at 411.
A.

The last reasoned decision

The first task for us in reviewing a claim governed by the AEDPA is to identify the relevant statecourt decision. § 2254(d). To that end, the Supreme
Court says that we must examine closely the “last related state-court decision” that provides a “relevant
rationale” for a particular claim. Wilson v. Sellers, 138
S. Ct. 1188, 1192 (2018). If the last related state-court
decision does not provide a relevant rationale for the
relevant claim, we must “look through” that decision
and find one that does. Id. Only then can we consider
whether the highest state court to decide the claim resolved it in a manner contrary to or with an unreasonable application of clearly established Supreme Court
precedent. Id.
Before identifying the appropriate state-court
decision, we review Atkins’ application for state postconviction relief. Atkins’ state application included

53a
the same Confrontation Clause claim he brought in
his federal application under Section 2254, but Atkins’ state application also included claims of ineffective assistance of trial counsel. The allegations included claims about deficient pretrial preparation and
about later failures in cross-examining witnesses, objecting to jury instructions, and failing to move for
mistrial based on a Confrontation Clause violation.
None of those allegations were raised in Atkins’ federal application. The highest state-court decision for
us to identify is the one resolving the Confrontation
Clause claim.
The Louisiana Supreme Court denied relief to
Atkins for two reasons. First, the court concluded that
Atkins’ claims were procedurally defaulted because
he “failed to raise his claims in the proceedings leading to the conviction,” relying on Louisiana Code of
Criminal Procedure article 930.4(B). That is the procedural default that we have already explained we
will not inject into this appeal. Second, the court held
that Atkins failed to “satisfy his postconviction burden of proof” under Louisiana Code of Criminal Procedure article 930.2. Because the Louisiana Supreme
Court could have been applying article 930.2 to the
ineffective assistance claims alone, we cannot evaluate whether the court’s decision was contrary to or an
unreasonable application of clearly established
United States Supreme Court precedent. § 2254(d).

54a
We therefore look through the Louisiana Supreme
Court’s decision. 1
The next decision is that of the Louisiana Second Circuit Court of Appeal. The court of appeal provided only a string-cite of authority, without explanation. First, the court cited Louisiana Code of Criminal
Procedure article 930.2, which provides that an applicant for post-conviction relief bears the burden of
proof. Second, the court cited Louisiana Code of Evidence article 801(c), which defines hearsay. Third, the
court cited State v. Lewis, 47,853 (La. App. 2 Cir.
2/27/13), 110 So. 3d 644, 653, writ denied, 2013-0672
(La. 10/25/13), 124 So. 3d 1092. In Lewis, a criminal
defendant raised five issues on direct appeal. 110 So.
3d at 649–55. In resolving Atkins’ appeal, the court of
appeal cited the page of Lewis discussing the right to
confrontation, the only issue that was relevant to Atkins’ state application. Id. at 653. On that issue, the
Lewis Court held that certain testimony connecting
the defendant to the crime was inadmissible hearsay,
but the error was harmless because of substantial evidence of guilt before the jury. Id.
Finally, the court of appeal cited Woods v.
Etherton, 136 S. Ct. 1149, 1151 (2016). Woods dealt
only with a claim of ineffective assistance of appellate
counsel for failing to raise a Confrontation Clause argument on appeal. Id. at 1151–53. The Atkins court of
1

Atkins argues we should “look through” the state high
court’s decision and review the court of appeal decision.
The State does not take a position on which decision to
review.

55a
appeal decision cited the portion of Woods discussing
the procedural history of the case and setting forth
the “doubly deferential” standard for claims of ineffective counsel in habeas review. Id. at 1151. Atkins argues that the state court of appeal denied his Confrontation Clause claim by incorrectly applying this double deference. We cannot reliably interpret the reference to Woods. The state court of appeal might have
been applying double deference to the Confrontation
Clause claim, which would have been error, but it also
might have been using double deference merely to reject the claims for ineffective counsel. As to Lewis, the
state court of appeal could have determined there was
no Confrontation Clause violation; or alternatively
that there was a Confrontation Clause violation, but
the error was harmless.
The state court of appeal’s reasoning falls short
of what is needed to consider whether that court’s decision was contrary to or an unreasonable application
of clearly established United States Supreme Court
precedent. § 2254(d).
Thus, we look through a second opinion. In doing so, we now see the state district court’s decision.
That court denied Atkins’ application for postconviction relief with far more explanation than the state
appellate court or state supreme court used. The state
district court held that Atkins’ right to confrontation
was not violated, reasoning that because Detective
Dowdy’s testimony did not reference the actual statements made by Horton during Detective Dowdy’s investigation, no hearsay was admitted. The court also
found that Detective Dowdy’s testimony was “used to

56a
explain the sequence of events leading to the arrest of
[Atkins] from the viewpoint of the arresting officers,”
which is permissible under state law.
This decision is the needed state-court ruling
that provides a relevant rationale for Atkins’ Confrontation Clause claim. Applying our deferential review,
we consider whether it suffices under Section 2254(d).
B.

Unreasonable application of Supreme
Court precedent

We are not aware of a Supreme Court opinion
with nearly identical facts to those here, so we consider whether “the state court misapplied the relevant
legal principles to the facts.” Taylor v. Cain, 545 F.3d
327, 334 (5th Cir. 2008).
The Confrontation Clause provides that “[i]n
all criminal prosecutions, the accused shall enjoy the
right . . . to be confronted with the witnesses against
him.” U.S. CONST. amend. VI. That provision bars the
admission of “testimonial statements of a witness who
did not appear at trial unless he was unavailable to
testify, and the defendant had had a prior opportunity
for cross-examination.” Crawford v. Washington, 541
U.S. 36, 53–54 (2004). We know that “testimony” is
the “solemn declaration or affirmation made for the
purpose of establishing or proving some fact.” Id. at
51 (citation omitted). Testimonial statements can be
used without constitutional barrier “for purposes
other than establishing the truth of the matter asserted.” Id. at 59 n.9.

57a
We consider the state district court’s initial
reason that Atkins’ right to confrontation was not violated: there was no hearsay admitted because Detective Dowdy did not recite the actual statements made
by Horton during Detective Dowdy’s investigation.
We compare that reasoning to the Supreme Court’s
holding in Gray v. Maryland, 523 U.S. 185 (1998). In
Gray, the Court held that a defendant’s Confrontation
Clause rights were violated by the admission of a
codefendant’s confession; the confession was redacted
by replacing the defendant’s name with blank spaces
and, when the blanks were read into evidence by a police detective at trial, the word “deleted” or “deletion”
was used instead. Id. at 188. Although the police detective did not repeat the mention of the defendant’s
name, the Court reasoned that such redacted statements “obviously refer directly to someone, often obviously the defendant, and which involve inferences
that a jury could ordinarily make immediately, even
were the confession the very first item introduced at
trial.” Id. at 196. So too here. Detective Dowdy may
not have used Atkins’ name, but surely there was no
doubt in jurors’ minds that Horton had implicated Atkins. This was clear because Dowdy testified that
based on what Horton said, Dowdy obtained an arrest
warrant for Atkins. The state district court’s first reason to deny Atkins’ Confrontation Clause claim was
an unreasonable application of Gray.
The state district court decision we are reviewing also concluded that Detective Dowdy’s testimony
was introduced for a purpose other than establishing
the truth of the matter asserted. Instead, this testi-

58a
mony was introduced only to explain the course of Detective Dowdy’s investigation leading to Atkins’ arrest. The state district court based that conclusion on
State v. Calloway, 324 So. 2d 801, 809 (La. 1975), in
which the state supreme court held that statements
made “to explain the sequence of events leading to the
arrest of the defendants from the viewpoint of the arresting officers” are not hearsay. Thus, according to
the state district court, Detective Dowdy’s testimony
was not hearsay under state law, and therefore there
was no violation of Atkins’ confrontation rights.
This court’s caselaw is clear that explain-theinvestigation exceptions to hearsay cannot not displace the Confrontation Clause. For example, “police
testimony about the content of statements given to
them by witnesses are testimonial,” and “officers cannot refer to the substance of statements made by a
nontestifying witness when they inculpate the defendant.” United States v. Kizzee, 877 F.3d 650, 657
(5th Cir. 2017) (collecting decisions). 2
We return to Taylor v. Cain, as the questioned
testimony there is quite similar to what occurred
here. There, the detective stated that he “had a conversation with [the witness] and during this conversation, learned some information,” and from that in-

2

Although the AEDPA requires us to look at clearly established law from the Supreme Court, our decisions discussed here that interpret Supreme Court precedent are
binding in this circuit on what that Court has clearly established.

59a
formation the detective testified he “was able to develop a suspect.” Taylor, 545 F.3d at 331. The prosecutor immediately asked, “per this end of your investigation, what was the name of your suspect?” Id. The
detective gave the defendant’s name. Id. We held that
the detective’s testimony that a nontestifying witness
implicated the defendant’s guilt and the prosecution’s
references to that testimony in closing argument were
hearsay. Id. at 336. Introducing that hearsay testimony violated the defendant’s confrontation rights
under Ohio v. Roberts, 448 U.S. 56, 65 (1980), and the
state court’s contrary decision constituted an unreasonable application of Supreme Court precedent. Id.
Under Supreme Court Confrontation Clause jurisprudence, law enforcement “officers cannot, through their
trial testimony, refer to the substance of statements
given to them by nontestifying witnesses in the course
of their investigation, when those statements inculpate the defendant.” Id. at 335.
Like Taylor, Detective Dowdy testified that
Horton, a nontestifying witness, implicated Atkins
and the prosecution likewise referenced that testimony in its closing argument. Such testimony violates
the Confrontation Clause. If a state court decides otherwise, the decision is an unreasonable application of

60a
Supreme Court precedent. 3 Accordingly, unless the
state court’s error was harmless, relief is warranted.
III.

Whether the state district court’s error was
harmless

Confrontation Clause violations are subject to
harmless error analysis. Horn v. Quarterman, 508
F.3d 306, 322 n.24 (5th Cir. 2007). The State concedes
that it did not raise harmlessness in this case but
urges us to consider the possibility sua sponte. We
have the discretion to do so. Jones v. Cain, 600 F.3d
527, 541 (5th Cir. 2010). We see no reason for exercising it here.
***
The state district court’s decision that no Confrontation Clause violation occurred through the handling of Detective Dowdy’s testimony constitutes an

3

In Taylor, we relied on the Supreme Court’s Ohio v. Roberts opinion. Some of the analysis of that opinion was
overruled before Atkins’ trial by Crawford v. Washington, 541 U.S. 36, 53–54 (2004). Crawford’s rejection of
some parts of Ohio v. Roberts, though, does not affect the
issue before us. Crawford expanded the Sixth Amendment’s Confrontation Clause right by rejecting the “reliability” justification set forth in Ohio v. Roberts that
saved some out-of-court statements from Sixth Amendment scrutiny. Id. at 67–68. Crawford did nothing to undermine the longstanding recognition that the type of
statement here — the inculpatory out-of-court statement
of an eyewitness — implicates the Confrontation Clause.
Taylor still controls.

61a
unreasonable application of Supreme Court precedent, and the State waived harmlessness. We REVERSE the district court’s judgment denying Atkins
habeas relief and the case is REMANDED for the district court to grant relief consistent with this opinion.

62a
TERRY A DOUGHTY
UNITED STATES DISTRICT JUDGE

63a
UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF LOUISIANA
MONROE DIVISION
JUSTIN TERRELL
ATKINS LA DOC
#465731
VERSUS
TIMOTHY HOOPER

CIVIL ACTION NO. 171544
JUDGE TERRY A.
DOUGHTY
MAG. JUDGE KAREN
L. HAYES

REPORT AND RECOMMENDATION
Petitioner Justin Atkins, an inmate in the custody of Louisiana’s Department of Corrections, filed
the instant petition for writ of habeas corpus pursuant to 28 U.S.C. § 2254 on November 27, 2017. [docs.
# 1, 5]. 1 Atkins attacks his 2010 convictions for armed
robbery and aggravated battery, as well as the 45year sentence imposed by Louisiana’s 4th Judicial
District Court, Ouachita Parish. This matter has been
referred to the undersigned for review, report, and
recommendation in accordance with the provisions of
28 U.S.C. § 636 and the standing orders of the Court.

1

Atkins resubmitted his petition on January 5, 2018 because he failed to the complete the petition on approved
forms. [docs. # 4, 5].

64a
BACKGROUND
The underlying facts in this case have been set
forth by the Louisiana Second Circuit Court of Appeal
as follows:
On January 2, 2009, Robert
Jones, Howard Bishop, and
Tom Harris were drinking
together at Jones’ modest
residence
on
Jackson
Street in Monroe. All three
men lived in the neighborhood. Bishop and Jones had
just returned to the residence after cashing Jones’
VA check. Atkins knew of
the transaction.
Atkins kicked in the door,
barged into the home, and
demanded money from
Jones, who refused. Atkins
began beating Jones with
the butt of a firearm. Harris intervened and was also
struck with the firearm.
Bishop witnessed all of
this, even observing Atkins
take the money from Jones’
pocket.
Lurking at the door during
the robbery was a man

65a
named Lawrence Horton,
known in the neighborhood
only as “O.” Horton had
been living with Harris for
a few months. That morning, however, Harris ordered him to leave. Harris
had known Horton for
about a year.
A few days after the robbery, Harris later found
some correspondence at the
residence which bore O’s
real name: Lawrence Horton.
Eight days after the robbery, Horton sent word
that he wanted to speak
with the police. When Detective Jeffrey Dowdy questioned him, Horton admitted his part in the robbery.
He blamed mainly Atkins
for this crime.
After an arrest warrant
was secured, Atkins was
arrested.
Harris later obtained a
photo of the robber, whom
he identified as “J. Money.”

66a
Harris gave the photo to
the detective, claiming that
it depicted the person who
beat him, and who had
beaten and robbed Jones.
State v. Atkins, 46,613 (La. App. 2 Cir. 9/21/11), 74 So.
3d 238, 239.
On June 18, 2010, a jury found Atkins guilty of
armed robbery, a violation of La. R.S. 14:64, and aggravated battery, a violation of La. R.S. 14:34. He was
subsequently sentenced to 35 years at hard labor for
the armed robbery, and a consecutive 10-year hard labor term for the aggravated battery. Id.
Atkins filed a direct appeal in the Second Circuit Court of Appeal, raising three issues: (1) insufficient evidence; (2) a tainted lineup identification; and
(3) excessive sentence. On September 21, 2011, the
Second Circuit affirmed Atkins’ convictions and sentences. Id. On February 17, 2012, the Louisiana Supreme Court denied Atkins’ subsequent application
for writ of certiorari and/or review. State v. Atkins,
2011-2287 (La. 2/17/12), 82 So. 3d 284. Atkins did not
file a petition for certiorari in the United States Supreme Court. [doc. # 5 ¶ 9(h)].
On December 6, 2012, Atkins filed an application for post-conviction relief in the state district
court, alleging: (1) denial of his Sixth Amendment
right to confront and cross-examine the witnesses
against him; (2) the trial court erred in allowing a sub-

67a
stantial amount of hearsay evidence to prove key elements of the state’s case; and (3) counsel was ineffective in trial and pre-trial proceedings. [doc. # 14-1].
On July 27, 2015, Atkins filed an “Amended Brief in
Support of Application for Post-Conviction Relief,”
[doc. # 14-3], which the court denied. [doc. # 14-4]. The
Second Circuit Court of Appeal denied his application
on April 28, 2016. [doc. # 14-6]. Atkins sought a supervisory and/or remedial writ, which the Louisiana
Supreme Court denied on September 29, 2017. State
ex rel. Atkins v. State, 2016-1082 (La. 9/29/17), 227
So. 3d 251. In its per curiam opinion, the Louisiana
Supreme Court found that Atkins had fully litigated
his application for post-conviction relief in state court
and exhausted his right to state collateral review. Id.
On November 27, 2017, Atkins filed the instant
federal habeas corpus petition, arguing he was denied
his right to confrontation, in violation of the Sixth
Amendment to the United States Constitution, when
the State introduced testimony from his co-defendant
without providing Atkins with the opportunity for
cross-examination. (Memorandum in Support
(“Mem.”), [doc. # 1-2]). The State filed its response on
June 22, 2018. [doc. # 18]. Atkins filed a reply on July
30, 2018. [doc. # 19]. 2 This matter is ripe.

2

Petitioner’s reply is not timely. According to this court’s
Memorandum Order dated May 21, 2018, Petitioner had
twenty days following the filing of the State’s memorandum to file a reply. [doc. # 15 at 4]. The deadline for Petitioner to submit a reply was July 12, 2018.

68a
STANDARD OF REVIEW
The Antiterrorism and Effective Death Penalty
Act (“AEDPA”) of 1996, 28 U.S.C. § 2254, governs habeas corpus relief of a state prisoner. The AEDPA limits how a federal court may consider habeas claims.
After a state court has adjudicated a prisoner’s claims
on the merits, federal review “is limited to the record
that was before the state court.” Cullen v. Pinholster,
563 U.S. 170, 181 (2011). An application for a writ of
habeas corpus should be granted if the petitioner
shows that the adjudication of the claim in state
court:
(1) resulted in a decision
that was contrary to, or involved an unreasonable application of, clearly established Federal law, as determined by the Supreme
Court of the United States;
or
(2) resulted in a decision
that was based on an unreasonable determination
of the facts in light of the
evidence presented in the
State court proceeding.
28 U.S.C. § 2254(d)(1)-(2).
A decision is “contrary to” clearly established
Federal law “if the state court arrives at a conclusion
opposite to that reached by . . . [the Supreme Court]

69a
on a question of law or if the state court decides a case
differently than . . . [the Supreme Court] has on a set
of materially indistinguishable facts.” Dowthitt v.
Johnson, 230 F.3d 733, 740-41 (5th Cir. 2000) (quoting Williams v. Taylor, 529 U.S. 362, 412-13 (2000)).
“The ‘contrary to’ requirement refers to holdings, as
opposed to the dicta, of . . . [the Supreme Court’s] decisions as of the time of the relevant state-court decision.” Id. at 740 (citations and internal quotations
omitted). “[U]nder the ‘unreasonable application’
clause, a federal habeas court may grant the writ if
the state court identifies the correct governing legal
principle from . . . [the Supreme Court’s] decisions but
unreasonably applies the principle to the facts of the
prisoner’s case.” Id. at 741 (quoting Williams, 529
U.S. at 413).
Section 2254(d)(2) speaks to factual determinations made by the state courts. Federal courts presume such determinations to be correct; however, a
petitioner can rebut this presumption by clear and
convincing evidence. 28 U.S.C. § 2254(e)(1). AEDPA
has put into place a deferential standard of review,
and a federal court must defer to a state court adjudication on the merits. Valdez v. Cockrell, 274 F.3d 941,
950 (5th Cir. 2001). “As a condition for obtaining habeas corpus from a federal court, a state prisoner
must show that the state court’s ruling on the claim
being presented in federal court was so lacking in justification that there was an error well understood and
comprehended in existing law beyond any possibility
for fairminded disagreement.” Harrington v. Richter,
562 U.S. 86, 103 (2011).

70a
DISCUSSION
I.

Claim

Atkins argues that he is entitled to habeas corpus relief because his Sixth Amendment right of confrontation was violated by the introduction of inadmissible hearsay evidence. (Mem. at 7). His claim centers around the prosecution’s opening statements before the jury and the testimony of Detective Jeffrey
Dowdy. In its opening statement, the prosecution
stated, in relevant part:
Finally, I believe the State
will have the testimony of
Lawrence Horton. Lawrence Horton is a co-defendant in this case. That
he was arrested for this offense as well as the defendant in this case. I believe
that he will tell you that he
and defendant met on the
morning of January 2nd,
2009. That they went ultimately to 1710 Jackson
Street wherein the defendant, Mr. Atkins over here,
busted the door in at 1710
and robbed and beat the
victims while he himself,
Mr. Horton, served as a
lookout. And I believe that

71a
will – you will anticipate
that testimony as well.
[doc. # 18-3 at 764-65].
During the trial, the following exchange occurred between the prosecution and Detective Dowdy:
Prosecutor: What happened next with regard to
your investigation?
Det. Dowdy: The next thing
that I did occurred on January the 10th, 2009.
Prosecutor: Okay. And
what – what happened on
that date?
Det. Dowdy: I was contacted by Monroe Police
Department,
Sergeant
Isaac Gayden, who stated
that Lawrence Horton
wanted to speak with me
regarding this – this case.
Prosecutor: Okay. And did
you in fact speak with Lawrence Horton?
Det. Dowdy: Yes, sir, I did.

72a
Prosecutor: All right. Was
he advised of his rights?
Det. Dowdy: Yes, sir, he
was.
Prosecutor: And did he provide a statement to you?
Det. Dowdy: Yes, sir, he
did.
Prosecutor: Was that statement inculpatory? Did he –
Det. Dowdy: Yes, sir, it
was.
Prosecutor: Okay. Did he
implicate anybody else?
Det. Dowdy: Yes, sir, he
did.
Prosecutor: Okay. As a result of this – well, all right,
he implicated someone
else. What did you do next
with regard to your investigation?
Det. Dowdy: Based on the –
the information that he
provided he was arrested

73a
and again, based on the information that he provided
I was able to obtain a warrant.
Prosecutor: For whom?
Det. Dowdy: Justin Atkins.
Prosecutor: Okay. And why
was he, you know, never
mind. You obtained a warrant for Justin Atkins and
that warrant was signed by
a Judge?
Det. Dowdy: Yes, sir.
Prosecutor: Okay. And ultimately Mr. Atkins was arrested on that warrant?
Det. Dowdy: Yes, sir, that’s
correct.
(Id. at 793-94).
Despite the prosecution’s opening statement,
Horton did not testify at Atkins’ trial. Atkins claims
that Detective Dowdy’s testimony regarding Horton is
hearsay, and because Atkins was unable to cross-examine Horton, the admission of Dowdy’s testimony violated the Confrontation Clause. (Mem.)

74a
The State responds that Detective Dowdy’s
statement is not hearsay, and therefore, Atkins’ right
to confrontation was not violated. [doc. # 18 at 10-11].
The State also claims there was sufficient evidence to
convict Atkins without Horton’s testimony, which is
why the State decided not to present Horton’s testimony. (Id. at 12).
II.

Law

Federal courts do not “review the admissibility
of evidence under state law unless erroneous evidentiary rulings were so extreme as to result in a denial
of a constitutionally fair proceeding.” Jackson v.
Johnson, 194 F.3d 641, 656 (5th Cir. 1999). Indeed,
“the erroneous admission of prejudicial testimony
does not justify habeas relief unless the evidence
played a ‘crucial, critical, and highly significant’ role
in the jury’s determination.” Id. (citations omitted).
Therefore, to obtain relief on his claim that the state
court permitted inadmissible hearsay testimony at
trial, Atkins must prove that the erroneous admission
was so prejudicial as to deny him of a constitutionally
fair proceeding. See Dixon v. Warden, Louisiana State
Penitentiary, No. CIV.A. 11-2100, 2012 WL 6803686,
at *7 (W.D. La. Nov. 30, 2012).
The Sixth Amendment guarantees that, “[i]n
all criminal prosecutions, the accused shall enjoy the
right . . . to be confronted with the witnesses against
him.” U.S. Const. amend. VI. This right applies to the
states through the Fourteenth Amendment. Pointer v.
Texas, 380 U.S. 400, 403 (1965). In general, the Confrontation Clause “bars witnesses from reporting the

75a
out-of-court statements of nontestifying declarants.”
Taylor v. Cain, 545 F.3d 327, 335 (5th Cir. 2008) (citing Crawford v. Washington, 541 U.S. 36, 54-56
(2004)). For example, the United States Supreme
Court has held that the admission of a non-testifying
co-defendant’s confession at a joint criminal trial violated the defendant’s “right of cross-examination secured by the Confrontation Clause of the Sixth
Amendment.” Bruton v. United States, 391 U.S. 123,
126 (1968). Similarly, the Supreme Court has excluded the confession of a co-defendant who had been
tried separately and found guilty because the defendant had no opportunity for cross-examination. Douglas v. State of Ala., 380 U.S. 415, 419 (1965). Further,
“[p]olice officers cannot, through their trial testimony,
refer to the substance of statements given to them by
nontestifying witnesses in the course of their investigation, when those statements inculpate the defendant.” Taylor, 545 F.3d at 335.
However, the Confrontation Clause is only implicated when the out-of-court statement is hearsay.
Tennessee v. Street, 471 U.S. 409, 414 (1985). Hearsay
is “a statement, other than one made by the declarant
while testifying at the present trial or hearing, offered
in evidence to prove the truth of the matter asserted.”
La. Code Evid. art. 801(c). “The Louisiana Supreme
Court has repeatedly held that a Police Officer, in explaining his own actions, may refer to statements
made by other persons involved in the case.” Dixon,
2012 WL 6803686, at *8 (collecting cases). As set forth
in State v. Calloway, 324 So. 2d 801, 809 (La. 1975),
statements made “to explain the sequence of events

76a
leading to the arrest of the defendants from the viewpoint of the arresting officers” are not hearsay.
III.

Analysis

Atkins has failed to demonstrate that the trial
court’s admission of the testimony denied him the
right to a constitutionally fair proceeding or even that
the admission of Detective Dowdy’s testimony was erroneous.
The state court found that Detective Dowdy’s
statements were not hearsay. The court reasoned that
although Detective Dowdy made statements “in reference to the conversation between Atkins and Mr. Horton, this conversation was used to explain the sequence of events leading to the arrest of the defendant
from the viewpoint of the arresting officers” and was
not offered to prove the truth of the matter asserted.
[doc. # 14-4].
Upon review of the trial transcript and the
state court’s opinion, the undersigned finds that Atkins’ claim lacks merit. The record reflects that Detective Dowdy’s testimony was not introduced to
prove that Atkins committed the crimes. Rather, the
testimony was used to explain Dowdy’s course of investigation and what led to his arrest of Atkins. Further, Detective Dowdy did not provide the substance
of any of Horton’s statements. Therefore, Detective
Dowdy’s testimony is not hearsay, and Atkins’ Sixth
Amendment confrontation rights have not been violated.

77a
Accordingly, Atkins’ claim should be DISMISSED.
CONCLUSION
Based on the foregoing, IT IS RECOMMENDED that the petition for habeas corpus filed by
Petitioner Justin Atkins [docs. # 1, 5] be DENIED.
Under the provisions of 28 U.S.C. § 636(b)(1)(C)
and Rule 72(b), parties aggrieved by this Report and
Recommendation have fourteen (14) days from service of this Report and Recommendation to file specific, written objections with the Clerk of Court. A
party may respond to another party’s objections
within fourteen (14) days after being served with a
copy of any objections or response to the District
Judge at the time of filing. A courtesy copy of any objection or response or request for extension of time
shall be furnished to the District Judge at the time of
filing. Timely objections will be considered by the District Judge before the Judge makes a final ruling.
A PARTY’S FAILURE TO FILE WRITTEN
OBJECTIONS TO THE PROPOSED FINDINGS,
CONCLUSIONS,
AND
RECOMMENDATIONS
CONTAINED IN THIS REPORT WITHIN FOURTEEN (14) DAYS FROM THE DATE OF ITS SERVICE SHALL BAR AN AGGRIEVED PARTY, EXCEPT ON GROUNDS OF PLAIN ERROR, FROM
ATTACKING ON APPEAL THE UNOBJECTED-TO
PROPOSED FACTUAL FINDINGS AND LEGAL
CONCLUSIONS ACCEPTED BY THE DISTRICT

78a
JUDGE. Pursuant to Rule 11(a) of the Rules Governing Section 2254 Cases in the United States District
Courts, this Court must issue or deny a certificate of
appealability when it enters a final order adverse to
the applicant. Unless a Circuit Justice or District
Judge issues a certificate of appealability, an appeal
may not be taken to the court of appeals. Within fourteen (14) days from service of this Report and Recommendation, the parties may file a memorandum setting forth arguments on whether a certificate of appealability should issue. See 28 U.S.C. § 2253(c)(2). A
courtesy copy of the memorandum shall be provided
to the District Judge at the time of filing.
In Chambers, Monroe, Louisiana, this 19th day
of November 2018.
KAREN L. HAYES
UNITED STATES MAGISTRATE
JUDGE

79a
RELEVANT STATUTORY PROVISIONS
28 U.S.C.A. § 2254
Effective: April 24, 1996
(a) The Supreme Court, a Justice thereof, a circuit
judge, or a district court shall entertain an application
for a writ of habeas corpus in behalf of a person in
custody pursuant to the judgment of a State court
only on the ground that he is in custody in violation of
the Constitution or laws or treaties of the United
States.
(b)(1) An application for a writ of habeas corpus on
behalf of a person in custody pursuant to the judgment of a State court shall not be granted unless it
appears that-(A) the applicant has exhausted the remedies
available in the courts of the State; or
(B)(i) there is an absence of available State
corrective process; or
(ii) circumstances exist that render such process ineffective to protect the rights of the applicant.
(2) An application for a writ of habeas corpus may be
denied on the merits, notwithstanding the failure of
the applicant to exhaust the remedies available in the
courts of the State.

80a
(3) A State shall not be deemed to have waived the
exhaustion requirement or be estopped from reliance
upon the requirement unless the State, through counsel, expressly waives the requirement.
(c) An applicant shall not be deemed to have exhausted the remedies available in the courts of the
State, within the meaning of this section, if he has the
right under the law of the State to raise, by any available procedure, the question presented.
(d) An application for a writ of habeas corpus on behalf of a person in custody pursuant to the judgment
of a State court shall not be granted with respect to
any claim that was adjudicated on the merits in State
court proceedings unless the adjudication of the
claim-(1) resulted in a decision that was contrary to,
or involved an unreasonable application of,
clearly established Federal law, as determined
by the Supreme Court of the United States; or
(2) resulted in a decision that was based on an
unreasonable determination of the facts in
light of the evidence presented in the State
court proceeding.
(e)(1) In a proceeding instituted by an application for
a writ of habeas corpus by a person in custody pursuant to the judgment of a State court, a determination
of a factual issue made by a State court shall be presumed to be correct. The applicant shall have the burden of rebutting the presumption of correctness by
clear and convincing evidence.

81a
(2) If the applicant has failed to develop the factual
basis of a claim in State court proceedings, the court
shall not hold an evidentiary hearing on the claim unless the applicant shows that-(A) the claim relies on-(i) a new rule of constitutional law,
made retroactive to cases on collateral
review by the Supreme Court, that was
previously unavailable; or
(ii) a factual predicate that could not
have been previously discovered through
the exercise of due diligence; and
(B) the facts underlying the claim would be sufficient to establish by clear and convincing evidence that but for constitutional error, no reasonable factfinder would have found the applicant guilty of the underlying offense.
(f) If the applicant challenges the sufficiency of the
evidence adduced in such State court proceeding to
support the State court's determination of a factual
issue made therein, the applicant, if able, shall produce that part of the record pertinent to a determination of the sufficiency of the evidence to support such
determination. If the applicant, because of indigency
or other reason is unable to produce such part of the
record, then the State shall produce such part of the
record and the Federal court shall direct the State to
do so by order directed to an appropriate State official.
If the State cannot provide such pertinent part of the

82a
record, then the court shall determine under the existing facts and circumstances what weight shall be
given to the State court's factual determination.
(g) A copy of the official records of the State court,
duly certified by the clerk of such court to be a true
and correct copy of a finding, judicial opinion, or other
reliable written indicia showing such a factual determination by the State court shall be admissible in the
Federal court proceeding.
(h) Except as provided in section 408 of the Controlled
Substances Act, in all proceedings brought under this
section, and any subsequent proceedings on review,
the court may appoint counsel for an applicant who is
or becomes financially unable to afford counsel, except as provided by a rule promulgated by the Supreme Court pursuant to statutory authority. Appointment of counsel under this section shall be governed by section 3006A of title 18.
(i) The ineffectiveness or incompetence of counsel
during Federal or State collateral post-conviction proceedings shall not be a ground for relief in a proceeding arising under section 2254.

